Linda T. Coberly

(312) 558-8768
lcoberly@winston.com

March 31, 2021
VIA ELECTRONIC FILING SYSTEM
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
sharris@supremecourt.gov
Re:

Dimitri Shivkov, et al. v. Artex Risk Solutions, Inc., et al.;
No. 20-1313

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, all Respondents respectfully move for
a thirty (30) day extension of time for filing their brief in opposition to the Petition
for Writ of Certiorari filed in Dimitri Shivkov, et al. v. Artex Risk Solutions, Inc., et
al., Docket No. 20-1313 on March 17, 2021.
The United States Court of Appeals for the Ninth Circuit issued its opinion
on September 9, 2020. App. 1-40. Petitioners filed a Petition for Rehearing En Banc,
which the Ninth Circuit denied on October 28, 2020. App. 83-91. Petitioners filed
their Petition in this Court on March 17, 2021, 189 days after the Ninth Circuit
issued its opinion, and 140 days after the Ninth Circuit denied the Petition for
Rehearing En Banc. This Petition was placed on the Supreme Court docket on
March 22, 2021. Respondents’ deadline to file their brief in opposition to the
Petition is April 21, 2021.
Respondents consist of fourteen individuals and entities represented by five
different law firms. Respondents request thirty (30) additional days to allow them
to adequately coordinate a response among all attorneys and clients to the
arguments raised by the Petition. The need for an extension is also based on
difficulties relating to COVID-19, such as the need to work remotely. Petitioners
will suffer no prejudice from the requested extension, as they filed this Petition 140
days after the Ninth Circuit denied their Petition for Rehearing En Banc.

For the foregoing reasons, Respondents respectfully request an extension of
the deadline for filing their response to Petitioners’ Petition for Writ of Certiorari
from April 21, 2021 to May 21, 2021.
Respectfully submitted,

cc:

s/ Linda T. Coberly
Stephen V. D’Amore
Linda T. Coberly
Scott P. Glauberman
Michael A. Skokna
Reid F. Smith
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
Attorneys for Respondents
Artex Risk Solutions, Inc.
Arthur J. Gallagher & Co.
Debbie Inman

Karl M. Tilleman
Erin Bradham
DENTONS
2398 Camelback Road, #850
Phoenix, AZ 85016
(602) 508-3960
Attorneys for Respondents
TSA Holdings, LLC
TBS, LLC
Karl Huish
Jeremy Huish
Jim Tehero
Provincial Insurance, PCC
Tribeca Strategic Accountants, LLC

J. Steven Sparks
Vincent Miner
SANDERS & PARKS
3030 N. 3rd Str., #1300
Phoenix, AZ 85012
(602) 532-5600
Attorneys for Respondents
Epsilon Actuarial Solutions LLC
Julie Ekdom
J. Michael Low
Paul Gerding, Jr.
KUTAK ROCK
8601 N. Scottsdale Road, #300
Scottsdale, AZ 85253-2738
(480) 429-5000
Attorneys for Respondents
AmeRisk Consulting, LLC

Michael S. Rubin
DICKINSON WRIGHT PLLC
1850 N. Central Avenue, #1400
Phoenix, AZ 85004
(602) 285-5000
Attorneys for Respondents
Tribeca Strategic Accountants, PLC
2

CERTIFICATE OF SERVICE
I hereby certify as a member of the Bar of this Court representing the party
on whose behalf service is made that on March 31, 2021, I filed via the Supreme
Court’s Electronic Filing System this motion pursuant to Supreme Court Rule 30.4
to extend the time to file Respondents’ brief in opposition to Petitioners’ Petition for
Writ of Certiorari and served the same via electronic mail by agreement of the
parties on the following:
David R. Deary
LOEWINSOHN FLEGLE DEARY SIMON, LLP
12377 Merit Drive
Suite 900
Dallas, TX 75251
(214) 572-1700
Attorneys for Petitioners

s/ Linda T. Coberly
Linda T. Coberly
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
Attorneys for Respondents
Artex Risk Solutions, Inc.
Arthur J. Gallagher & Co.
Debbie Inman

